TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   Appeals Has Made Considerable Progress
                    in Its Campus Centralization Efforts, but
                           Some Opportunities Exist for
                                 Improvement



                                        February 19, 2010

                              Reference Number: 2010-10-021




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Redaction Legend:
 1=Tax Return/Return Information



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 DEPARTMENT OF THE TREASURY
                                                       WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                               February 19, 2010


 MEMORANDUM FOR CHIEF, APPEALS

 FROM:                        Michael R. Phillips
                              Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report – Appeals Has Made Considerable Progress in Its
                              Campus Centralization Efforts, but Some Opportunities Exist for
                              Improvement (Audit # 200910017)

 This report presents the results of our review to evaluate the effectiveness of actions taken by
 Office of Appeals (hereafter referred to as Appeals) management as a result of a prior Treasury
 Inspector General for Tax Administration (TIGTA) audit 1 evaluating the quality and effectiveness
 of Appeals centralized campus 2 operations and whether those actions resolved conditions previously
 identified. The Chief, Appeals, requested we initiate this followup review and it is part of our
 Fiscal Year 2009 Annual Audit Plan addressing the major management challenge of Providing
 Quality Taxpayer Service Operations.

 Impact on the Taxpayer
 The Appeals campus centralization was designed to resolve high volumes of work and focus on
 customer service and increase efficiency by responding to taxpayer issues earlier in the Appeals
 process. While Appeals has made considerable progress in achieving these goals and has taken
 corrective actions to address the recommendations made in our prior report, we believe
 additional improvement can be achieved in certain activities performed at the campuses to
 further enhance customer service and positively impact tax administration. We identified a few
 instances where actions can be taken to ensure taxpayer rights are protected, taxpayer burden is
 decreased, and Government revenue is protected. Continued focus in these areas will support


 1
   The Office of Appeals Needs to Improve the Monitoring of Its Campus Operations Quality (Reference
 Number 2007-10-071, dated May 10, 2007).
 2
   The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
 forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                            Appeals Has Made Considerable Progress in
                            Its Campus Centralization Efforts, but Some
                                Opportunities Exist for Improvement


Appeals’ goal of reducing the processing time of taxpayers’ appeals, enhancing customer
satisfaction, and improving the quality of work performed by Appeals personnel.

Synopsis
Since our last audit, Appeals management has made considerable progress in achieving their
goals of improving customer service and increasing efficiency through campus centralization.
Our case reviews showed Appeals has improved its process of notifying taxpayers before it
contacted third parties, as well as offering taxpayers the option of a face-to-face hearing when
applicable. We also found that excessive delays in contacting taxpayers on Penalty Appeal cases
and Innocent Spouse claims have decreased significantly since our last review. In addition,
Appeals management has revised their quality system to better measure the effectiveness of their
campus centralization activities.
In the prior TIGTA review, we found that 1) taxpayers were not properly notified of their appeal
rights during Innocent Spouse proceedings, 2) Appeals campus personnel did not always make
the correct determination on Penalty Appeals and claims, and 3) taxpayers did not always receive
timely acknowledgement of their appeal requests in Collection Due Process (CDP) and Offer in
Compromise (OIC) cases.
In this review, we continued to find minor areas in which Appeals can continue to improve case
processing at the campuses. Specifically, we selected statistical samples of cases closed by the
campuses in Fiscal Year 2008 and found Appeals officers working Innocent Spouse claims did
not properly notify the nonrequesting spouse when that individual is deceased.
In addition, we previously reported that Appeals did not always make correct determinations
when taxpayers filed claims for refunds and requested penalty abatements. In this review, we
determined that Appeals has continued to issue a small number of refunds to taxpayers in error.
Although we identified significant improvement by Appeals in processing requests for penalty
abatements, campus personnel should improve case documentation for penalty abatement cases
to clearly document the justification for abatements during the appeal process.
In our prior review, we identified that taxpayers did not always timely receive a Uniform
Acknowledgement Letter (UAL) from Appeals acknowledging receipt of CDP and OIC cases by
campus personnel. Based on our review of a statistically valid sample of CDP and OIC cases
closed in Fiscal Year 2008, we determined that Appeals is still not timely acknowledging receipt
of CDP and OIC appeals. Specifically, while Appeals has improved in acknowledging OIC
cases, for CDP cases, there were increased delays in acknowledging these cases since our last
review. These actions could result in denial of taxpayer rights and entitlements, loss of revenue
for the Federal Government, and increased taxpayer burden.



                                                                                                   2
                           Appeals Has Made Considerable Progress in
                           Its Campus Centralization Efforts, but Some
                               Opportunities Exist for Improvement



Recommendations
We recommended the Chief, Appeals, take the following actions: 1) develop procedural
guidance for the proper notification of Innocent Spouse proceedings when the nonrequesting
spouse is deceased; 2) issue reminders to employees to emphasize how statute of limitation dates
should be determined for refund claims and the requirement to properly document in the Appeals
Case Memo the reason for abating penalties; and 3) develop an internal control, possibly using
programming changes made as a result of a prior TIGTA recommendation, which would identify
the absence of the UAL on CDP and OIC cases and ensure one is issued within 30 calendar days
of receipt as required by Appeals management.

Response
Appeals management agreed with all of our recommendations and outlined its planned corrective
actions. Appeals management plans to 1) develop procedural guidance for the proper
notification of Innocent Spouse proceedings when the nonrequesting spouse is deceased;
2) remind employees how to determine the statute of limitation dates on refund claim cases;
3) update the Internal Revenue Manual to reinforce the need to document in the Appeals Case
Memo the basis for the decision when abating or partially abating the penalty; 4) develop
templates that identify OIC and CDP nondocketed cases received within the preceding 30
calendar days which have no UAL issued to the taxpayer or representative, and provide training
for the Appeals field managers to ensure understanding of the templates; and 5) update the
Internal Revenue Manual with the responsibility and use requirements of the UAL reports.
Appeals field managers will monitor the timeliness of the UALs issued on nondocketed OIC and
CDP receipts. Management’s complete response to the draft report is included as Appendix
VIII.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations), at (202) 622-8500.




                                                                                               3
                                       Appeals Has Made Considerable Progress in
                                       Its Campus Centralization Efforts, but Some
                                           Opportunities Exist for Improvement




                                             Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          The Appeals Quality Measurement System’s Sampling Methodology
          Has Been Revised to Better Measure the Quality of Campus Operations....Page 4
          Excessive Delays in Contacting Taxpayers for Penalty Appeal Cases
          and Innocent Spouse Claims Have Decreased, but Contacts Could
          Be Timelier ...................................................................................................Page 5
          No Inappropriate Contacts With Third Parties Were Identified and
          Taxpayers Were Provided With the Option of a Face-to-Face Hearing.......Page 6
          Additional Actions Can Be Taken to Improve Case Quality and
          Customer Service ..........................................................................................Page 7
                    Recommendation 1:........................................................Page 9

                    Recommendation 2:........................................................Page 10

                    Recommendation 3:........................................................Page 12


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 13
          Appendix II – Major Contributors to This Report ........................................Page 15
          Appendix III – Report Distribution List .......................................................Page 16
          Appendix IV – Outcome Measures...............................................................Page 17
          Appendix V – Appeals Case Receipts ..........................................................Page 20
          Appendix VI – Appeals Centralized Campuses............................................Page 21
          Appendix VII – Types of Cases Worked at the Campuses...........................Page 22
          Appendix VIII – Management’s Response to the Draft Report ...................Page 24
        Appeals Has Made Considerable Progress in
        Its Campus Centralization Efforts, but Some
            Opportunities Exist for Improvement




              Abbreviations

AQMS    Appeals Quality Measurement System
CDP     Collection Due Process
FY      Fiscal Year
IRS     Internal Revenue Service
OIC     Offer in Compromise
TIGTA   Treasury Inspector General for Tax Administration
UAL     Uniform Acknowledgement Letter
                                 Appeals Has Made Considerable Progress in
                                 Its Campus Centralization Efforts, but Some
                                     Opportunities Exist for Improvement




                                             Background

The Office of Appeals (hereafter referred to as Appeals) is an independent function within the
Internal Revenue Service (IRS) whose mission is to settle tax disputes on a fair and impartial basis
without litigation. Before the IRS Restructuring and Reform Act of 1998, 1 the majority of Appeals
cases involved hearings for audit and penalty assessments or taxpayers who appealed to the courts.
The volume of Appeals cases increased significantly after the IRS Restructuring and Reform Act
of 1998 was enacted because it established appeal rights for Collection Due Process (CDP), 2 Offer
in Compromise (OIC),3 and Innocent Spouse claims. 4
In Fiscal Year (FY) 2004, Appeals centralized certain types of cases to address increasing
inventories, improve customer service, and improve processing time (case cycle time). Appeals’
case receipts have steadily increased over the past 3 years from 99,918 to 115,819. 5
Prior to the centralization, Appeals cases were generally worked in the field office closest to the
taxpayer. Under centralization, Appeals assigns cases to employees at the campus6 location which
specializes in that type of case. At the campus, the Appeals or Settlement officer works with the
taxpayer or their representative through correspondence and telephone contact rather than meeting
face-to-face. However, if the taxpayer requests a face-to-face hearing, it is Appeals’ policy to
transfer the case from the campus to a field office near the taxpayer.
Appeals has centralized seven types of cases at six campus locations.7 FY 2005 was the first full
year of operations for four of the six centralized campuses. Appendix VI shows the types of cases
that were centralized at the campuses, the original campus sites, and the current campus sites.




1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
2
  Taxpayers may appeal the first time a Notice of Federal Tax Lien is filed on a taxpayer and when the taxpayer
receives a Final Notice of Intent to Levy.
3
  Taxpayers who are unable to pay their tax liability in a lump sum or through an installment agreement may file an
OIC.
4
  By filing an Innocent Spouse claim, a taxpayer may be relieved of responsibility for paying tax, interest, and
penalties if their spouse (or former spouse) improperly reported items or omitted items on a joint tax return.
5
  See Appendix V for more information on case receipts.
6
  The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.
7
  Those locations are: Fresno, California; Covington, Kentucky; Brookhaven, New York; Philadelphia, Pennsylvania;
Memphis, Tennessee; and Ogden, Utah.
                                                                                                            Page 1
                                 Appeals Has Made Considerable Progress in
                                 Its Campus Centralization Efforts, but Some
                                     Opportunities Exist for Improvement



Appendix VII describes the types of cases currently worked by the campuses. As shown in
Figure 1, since FY 2005, Appeals has become more efficient in five of the six work streams 8 listed.
                Figure 1: Appeals Case Cycle Time - Calendar Days

                TYPE OF CASE                     FY 2005       FY 2006        FY 2007       FY 2008

CDP                                                242           242            228           198

OIC                                                239           231            203           177

Innocent Spouse                                    425           317            208           228

Penalties                                          117           119            111           132

Examination 9                                      374           339            289           261

Other 10                                           241           225            150            71
Source: Appeals Business Performance Reviews dated December 17, 2007, and November 14, 2008.

We previously performed a review to evaluate the quality and effectiveness of Appeals
centralized campus operations and issued an audit report in May 2007. 11 We identified several
issues and made six recommendations. Specifically, Appeals was not monitoring the quality of
work performed within the campuses in a statistically valid manner. Further, Appeals did not
always offer taxpayers face-to-face hearings and some campus employees made incorrect
determinations. In addition, some taxpayers were not provided the proper notifications in some
Innocent Spouse claims. We also identified delays and long periods of inactivity when the
campuses processed some Penalty Appeal cases and Innocent Spouse claims.
The Chief, Appeals, requested that we initiate this followup review of the campus locations to
determine if the corrective actions taken by Appeals management were effective to address the
conditions identified in the prior audit. We reviewed five work streams: CDP, OIC, Innocent
Spouse, Penalty Abatement Requests, and Non-Docketed claims.12
This review was performed at the National Headquarters of the Office of Appeals in
Washington, D.C., and at the Office of Appeals in Denver, Colorado, during the period
April through September 2009. We conducted this performance audit in accordance with

8
  Work streams are specific types of cases which can be appealed including CDP, OIC, Innocent Spouse, Penalties,
and Examination determinations.
9
  Examination includes Examination Docketed, Non-Docketed, and S-Docketed cases. S-Docketed cases are those
where the taxpayer has petitioned the Tax Court on audit assessments less than $50,000.
10
   Other includes Freedom of Information Act, Abatement of Interest, Collection Appeals, Office of Professional
Responsibility, Other Penalties, and Miscellaneous cases.
11
   The Office of Appeals Needs to Improve the Monitoring of Its Campus Operations Quality (Reference
Number 2007-10-071, dated May 10, 2007).
12
   See Appendix VII for more information on the types of Appeals cases worked at the campuses.
                                                                                                         Page 2
                            Appeals Has Made Considerable Progress in
                            Its Campus Centralization Efforts, but Some
                                Opportunities Exist for Improvement



generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.




                                                                                            Page 3
                                 Appeals Has Made Considerable Progress in
                                 Its Campus Centralization Efforts, but Some
                                     Opportunities Exist for Improvement




                                      Results of Review

Appeals campus centralization was designed to resolve high volumes of work and focus on
customer service and increase efficiency by responding to taxpayer issues earlier in the Appeals
process. Appeals management also wanted to ensure that taxpayers understood the process and
were apprised of their rights. Since our last audit, Appeals management has made considerable
progress in achieving these goals through the campus centralization. Our case reviews showed
Appeals has improved its process of notifying taxpayers before it contacted third parties, as well
as offering taxpayers the option of a face-to-face hearing when applicable. Also, excessive
delays in contacting taxpayers on Penalty Appeal cases and Innocent Spouse claims have
decreased significantly since our last review. In addition, Appeals management has revised their
quality system to better measure the effectiveness of their campus centralization activities.
While Appeals has made considerable progress and has taken corrective actions to address the
recommendations made in our prior report, we believe additional improvement can be achieved
in certain activities performed at the campuses to further enhance customer service and
positively impact tax administration. We identified a few instances where actions can be taken
to ensure taxpayer rights are protected, taxpayer burden is decreased, and Government revenue is
protected. Specifically, decision letters were not always issued to the nonrequesting spouse on
Innocent Spouse claims when the individual is deceased.13 In addition, Appeals can continue to
improve its processing of Penalty Appeal cases to ensure campus personnel make the correct
determination when abating penalties. Further, we noted that Appeals personnel are still issuing
a small number of refunds in error. Finally, Appeals personnel are still not timely notifying
taxpayers that their appeal has been received for CDP and OIC cases. Continued focus in these
areas will support Appeals’ goal of reducing the processing time of taxpayers’ appeals,
enhancing customer satisfaction, and improving the quality of work performed by Appeals
personnel.

The Appeals Quality Measurement System’s Sampling Methodology
Has Been Revised to Better Measure the Quality of Campus
Operations
The Appeals Quality Measurement System (AQMS) is the primary tool used to measure the
quality of casework performed by Appeals and Settlement officers. To assess quality, the
AQMS randomly selects a sample of all closed cases in the Appeals Centralized Database
System. Appeals management uses the information from the AQMS to assess how well it is

13
  A decision letter advises the nonrequesting spouse of Appeals’ decision regarding the requesting spouse’s claim
for relief from joint and several liability under Internal Revenue Code Section 6015.
                                                                                                           Page 4
                                 Appeals Has Made Considerable Progress in
                                 Its Campus Centralization Efforts, but Some
                                     Opportunities Exist for Improvement



performing as an organization, not as a gauge of individual performance. Some of the areas
reviewed include the timeliness of case resolution, how well Appeals communicates with its
customers, and adherence to legal and procedural guidelines.
In the prior review, we found that Appeals did not have sufficient detailed information to
determine if areas of improvement were needed specifically in the campuses or in the field
offices. This occurred because the AQMS selected samples from geographic areas, which
included both campuses and field offices. At the conclusion of our review in FY 2007, we
recommended that management revise the methodology used to select the samples of cases.
During this review, we found that Appeals made changes to its sampling methodology and can
now determine the overall quality of individual campuses. As a result, Appeals management has
improved information to determine if centralizing operations at the campuses is reducing cycle
time while maintaining the quality of its work.
However, Appeals management is not able to assess the quality of individual work streams at the
campuses. Appeals management stated that a sampling approach for individual work streams
would be optimal, but is cost prohibitive since it would require additional staffing to review the
larger sample sizes for each work stream. Also, an estimated $75,000 is needed to modify the
programming on the Appeals Centralized Database System.
Although sampling by work stream is not currently feasible, Appeals management stated they are
planning to further refine the AQMS sampling methodology to select two separate samples: a
collection 14 and a noncollection 15 sample for each Area location. 16 This differentiation will
provide better information to Appeals management and help them identify where improvements
are needed within these case types. In August 2009, Appeals submitted a work request to revise
its programming and anticipates the revised sampling methodology will be installed on its
centralized database by FY 2011.

Excessive Delays in Contacting Taxpayers for Penalty Appeal Cases
and Innocent Spouse Claims Have Decreased, but Contacts Could Be
Timelier
Timely service continues to be important to taxpayers. A FY 2005 Appeals Customer
Satisfaction Survey found that taxpayers believed it took too long to hear from Appeals and the
length of the Appeals process was too long. This trend continues as these areas were also rated
the lowest in a FY 2008 Appeals Customer Satisfaction Survey. Currently, Appeals is required


14
   Collection cases include OIC and CDP.
15
   Noncollection cases include appeals of Innocent Spouse and Examination determinations.
16
   The Appeals organization is divided into two geographic field operations (East and West). Both East and West
operations are divided into Area Offices. An Area Office is a geographic organizational level used by IRS business
units and offices to help their specific types of taxpayers understand and comply with tax laws and issues.
                                                                                                           Page 5
                                  Appeals Has Made Considerable Progress in
                                  Its Campus Centralization Efforts, but Some
                                      Opportunities Exist for Improvement



to contact taxpayers within 30 calendar days; however, there are no additional requirements for
subsequent contacts.
The prior Treasury Inspector General for Tax Administration (TIGTA) review found that there
were excessive delays (exceeding 6 months) in contacting taxpayers on Penalty Appeal cases and
Innocent Spouse claims. As a result of the prior TIGTA report, Appeals analyzed systemic data
to identify and address Penalty Appeal cases and Innocent Spouse claims before they became
over-age. In addition, Appeals flowcharted the processes to identify areas where the case cycle
time could be reduced.
We determined that Appeals has improved its case processing to ensure taxpayers are
subsequently contacted in a timelier manner after Appeals initially acknowledges their Penalty
Appeals and Innocent Spouse claims. Specifically, our sample of 58 Penalty Appeal cases
closed by the campuses in FY 2008 **********************1***********************
 **************************************************************************
*************************************. In addition, our sample of 57 Innocent Spouse
claims closed by the campuses in FY 2008 found the Appeals Officers subsequently contacted
the taxpayers less than 7 months after the initial contact letter was sent. Although this is an
improvement since our last audit, we continue to believe that taxpayers should be contacted in a
timelier manner. Appeals management indicated that high inventories have contributed to delays
in contacting taxpayers.

No Inappropriate Contacts With Third Parties Were Identified and
Taxpayers Were Provided With the Option of a Face-to-Face Hearing
In the prior TIGTA review, we identified that Appeals was not notifying taxpayers when third-
party contacts were made or adequately informing taxpayers of their option of a face-to-face
hearing. In this review, we selected statistical samples of cases closed by the campuses in
FY 2008 and found no instances of inappropriate third party contacts. In addition, Appeals
personnel appropriately informed taxpayers of their option of a face-to-face hearing in the cases
we reviewed.

Taxpayers were notified before the IRS contacted third parties
The IRS is required to provide reasonable notice to taxpayers prior to contacting third parties
when it is necessary to resolve a taxpayer’s case. 17 For example, the IRS may need to contact
third parties such as financial institutions, mortgage companies, or the taxpayer’s neighbors to


17
  Section 3417 of the IRS Restructuring and Reform Act of 1998 revised Internal Revenue Code Section 7602(c)
(2007) to require that IRS employees provide taxpayers with notice of contact of third parties. Under this section,
the IRS must provide taxpayers with prior notification that third parties may be contacted during the determination
or collection of that specific taxpayer’s Federal tax liability.
                                                                                                             Page 6
                                  Appeals Has Made Considerable Progress in
                                  Its Campus Centralization Efforts, but Some
                                      Opportunities Exist for Improvement



resolve a collection case. When third-party contact is necessary, the case file must be
documented accordingly.
The prior TIGTA report identified instances where Appeals employees did not follow policies
and procedures for third-party contacts. ********************1*********************
***************************************************************************
***************************************************************************
***********************************. As a result, Appeals revised the Internal Revenue
Manual 19 to clarify requirements in this area. In this review, we found that Appeals employees
followed the proper procedures when contacting third parties. Specifically, we sampled 58 CDP
cases closed by the campuses and found no inappropriate contacts with third parties.

Taxpayers were offered face-to-face hearings
All of the Appeals work streams require that a UAL be sent to taxpayers. The prior TIGTA
review found the UAL issued on OIC, Innocent Spouse, and Non-Docketed hearing requests did
not provide the taxpayers with an explicit statement explaining they have the option to request a
face-to-face hearing.
As a result of the prior TIGTA report, Appeals revised the UAL to explicitly inform taxpayers of
their option of a face-to-face hearing. This revised letter was available electronically on
November 29, 2007. We sampled OIC, Innocent Spouse, and Non-Docketed cases closed by the
campuses in FY 2008 and determined that those cases with a UAL issued after
November 29, 2007, provided the taxpayer with the option of a face-to-face hearing. In addition,
we analyzed Appeals Centralized Database System information and found 12,837 taxpayers were
issued a UAL on OIC, Innocent Spouse, and Non-Docketed cases between November 29, 2007,
and September 30, 2009. Due to our prior recommendation and Appeals management’s
corrective actions, these taxpayers’ right of requesting a face-to-face hearing was protected.

Additional Actions Can Be Taken to Improve Case Quality and
Customer Service
In the prior TIGTA review, we found that 1) taxpayers were not properly notified of their appeal
rights during Innocent Spouse proceedings, 2) Appeals campus personnel did not always make
the correct determination on penalty appeals and claims, and 3) taxpayers did not always receive
timely acknowledgement of their appeal requests in CDP and OIC cases.


18
   *********************************************1****************************************
***************************************************************************************
*******************.
19
   The Internal Revenue Manual is the single official source for IRS policies, directives, guidelines, procedures, and
delegations of authority in the IRS.
                                                                                                               Page 7
                             Appeals Has Made Considerable Progress in
                             Its Campus Centralization Efforts, but Some
                                 Opportunities Exist for Improvement



In this review, we continued to find minor areas in which Appeals can continue to improve case
processing at the campuses. Specifically, we selected statistical samples of cases closed by the
campuses in FY 2008 and found Appeals officers working Innocent Spouse claims did not
properly notify the nonrequesting spouse when that individual is deceased. In addition, Appeals
case files did not always adequately support penalty abatements and taxpayers are still not being
timely notified that their appeal has been received on CDP and OIC cases. These actions could
result in denial of taxpayer rights and entitlements, loss of revenue for the Federal Government,
and increased taxpayer burden.

Improvement is needed to ensure proper notification is sent during Innocent
Spouse proceedings when the nonrequesting spouse is deceased
By law, both persons who file a joint tax return are legally responsible for the entire tax liability;
however, taxpayers may request relief through Innocent Spouse provisions. 20 If the IRS grants
full or partial relief to the requesting spouse, the nonrequesting spouse can file a protest and
receive an administrative conference with Appeals. 21 In addition, if either the requesting or
nonrequesting spouse disagrees with the IRS determination, either spouse may file an appeal.
Appeals established procedures to notify both the requesting and nonrequesting spouses about
the status and final disposition of the Innocent Spouse claim. For example, Appeals is required
to acknowledge the requesting spouse’s request within 30 calendar days of receipt and will also
issue a Notice of Final Determination at the conclusion of the hearing. In addition, Appeals is
required to send certain notifications to the nonrequesting spouse, including a conference letter
and a final Decision Letter, if Appeals proposes to grant additional relief to the requesting
spouse. In the prior TIGTA review, we identified Innocent Spouse claims for which Appeals did
not provide proper notification to either the spouse who appealed or to the nonrequesting spouse.
More specifically, Appeals did not always send initial contact letters to the taxpayer who filed
the claim, final determination letters to both the requesting and nonrequesting spouse, or an
initial contact letter to the nonrequesting spouse to allow him or her the opportunity to participate
in the proceedings.
In this review, we selected a statistically valid sample of 57 Innocent Spouse claims closed by
the campuses in FY 2008 and found that Appeals properly issued the initial contact letter or
made telephone contact with the taxpayer who filed the claim. In addition, Appeals properly
provided the requesting spouse with a final determination letter.
However, some taxpayers were not sent a final determination or ****1****** letter 22 due to the
lack of guidance for deceased taxpayers. In 6 of the 57 sample cases reviewed, Appeals did not


20
   Internal Revenue Code Section 6015 (2007).
21
   Revenue Procedure 2003-19.
22
   ***********************************1*******************************************************
**********************************.
                                                                                               Page 8
                                Appeals Has Made Considerable Progress in
                                Its Campus Centralization Efforts, but Some
                                    Opportunities Exist for Improvement



send the nonrequesting (deceased) spouse a final determination letter. Also, **1** of the 6***
*******. Appeals management agreed they need to establish guidance on
handling Innocent Spouse claims when the nonrequesting spouse is deceased. During this
review, Appeals stated it still has not established specific guidance on sending the nonrequesting
spouse a ***1***or final determination letter if he or she is deceased. By not informing the
individual resolving the deceased taxpayer’s affairs of the Innocent Spouse proceedings, the IRS
is not providing that individual the opportunity to participate in the appeal, if applicable. If we
project the results to the population, there would be 336 taxpayers who did not receive a
conference or final determination letter as required. 23

Recommendation
Recommendation 1: The Chief, Appeals, should develop procedural guidance for the proper
notification of Innocent Spouse proceedings when the nonrequesting spouse is deceased.
        Management’s Response: Appeals management agreed with our recommendation
        and plans to develop procedural guidance for the proper notification of Innocent Spouse
        proceedings when the nonrequesting spouse is deceased.

Appeals campus personnel are still issuing some refunds in error and not always
documenting the reason why penalties were abated
We previously reported that Appeals did not always make correct determinations when taxpayers
filed claims for refunds and requested penalty abatements. In this review, Appeals has continued
to issue a small number of refunds to taxpayers in error. In addition, we identified significant
improvement by Appeals in processing requests for penalty abatements; however, campus
personnel should improve case documentation for penalty abatement cases to clearly justify the
reasons for abatements during the appeal process.
Taxpayers often file original or amended tax returns to claim a refund. However, taxpayers must
file their claim for refund within set time periods (statute of limitations). Generally, a taxpayer
may file a claim for refund within 3 years from the original due date of the return, including
extensions, or within 2 years of payment, whichever is later. If the IRS rejects the taxpayer’s
claim for refund, the taxpayer may file an appeal. In the prior review, we identified three cases
where the taxpayer’s refund claims were allowed by Appeals in error. In this review, **
******1**** of 57 ***********************************1***********************
**************************************************************************
****************************. We estimate Appeals officers made 87 incorrect statute of
limitations determinations in the campus operations for FY 2008.


23
  Based on 57 randomly selected Innocent Spouse claims closed by the campuses in FY 2008 with a 10 percent
error rate, a precision rate of ± 6.5 percent, and a 90 percent confidence level.
                                                                                                       Page 9
                                 Appeals Has Made Considerable Progress in
                                 Its Campus Centralization Efforts, but Some
                                     Opportunities Exist for Improvement



Penalties may be abated if a taxpayer establishes reasonable cause. 24 Appeals employees are
generally required to prepare an Appeals Case Memo when they abate penalties. The Appeals
Case Memo should outline the facts and circumstances of the case and the reason why the
penalties should be abated. Because Appeals management has delegated the authority to abate
certain penalties to Appeals officers, management often does not review the case file to
determine if the decision to abate penalties is appropriate.
In the prior review, we identified 17 (31 percent) of 54 sampled cases for which the penalties
were fully or partially abated in error. In these cases, the taxpayer had not exercised proper
business care or had a previous history of penalties. As a result, Appeals revised the Internal
Revenue Manual to provide clearer guidance in this area.
In this review, we sampled 58 Penalty Appeal cases and determined that documentation for
7 cases (12 percent) was either incomplete or did not support the decision to abate the penalties.
For example, *************************1***************************************
************************************1***************************************
************************************1**************. The loss of revenue due to the
inappropriate abatements for the 7 cases was $28,918.
Without adequate documentation, Appeals cannot fully support its decision to abate penalties.
This justification is important to ensure Appeals acted appropriately in these cases. If we project
the results to the population, there would be 818 taxpayers who had penalties improperly abated
during FY 2008. 26

Recommendation
Recommendation 2: The Chief, Appeals, should issue reminders to employees to emphasize:
     •   How statute of limitation dates should be determined for refund claims.
     •   The requirement to properly document in the Appeals Case Memo the reason for abating
         penalties. Specifically, the Appeals Case Memo should outline the facts and
         circumstances of the taxpayer’s case along with justification for the penalty abatement.
         Management’s Response: Appeals management agreed with our recommendation
         and plans to remind employees how to determine the statute of limitation dates on refund
         claim cases. Appeals management also plans to update the Appeals Penalty Internal


24
   Reasonable cause relief is generally granted when the taxpayer exercises ordinary business care and prudence in
determining their tax obligations but nevertheless is unable to comply with those obligations.
25
   ************************************1*****************************************************
********************************************************************************************.
26
   The sample was based on 58 randomly selected Penalty Appeal cases closed by the campuses in FY 2008 with a
12 percent error rate, a precision rate of ± 7 percent, and a 90 percent confidence level.
                                                                                                         Page 10
                                   Appeals Has Made Considerable Progress in
                                   Its Campus Centralization Efforts, but Some
                                       Opportunities Exist for Improvement



           Revenue Manual Section 8.11.1 to reinforce the need to document in the Appeals Case
           Memo the basis for the decision when abating or partially abating the penalty.

Appeals campus operations is still not always timely acknowledging receipt of
CDP and OIC cases
In our prior review, we identified that taxpayers did not always timely receive a UAL from
Appeals acknowledging receipt of CDP and OIC cases by campus personnel. Based on our
review of a statistically valid sample of CDP and OIC cases closed in FY 2008, Appeals is still
not timely acknowledging receipt of CDP and OIC appeals. Specifically, while Appeals has
improved in acknowledging OIC cases, for CDP cases, there were increased delays in
acknowledging these. Figure 2 summarizes the results found in this review.
             Figure 2: Delays in Acknowledging Taxpayers’ Appeals in FY 2008
                                                                                                         Total
                                                                        Untimely
                                  Number                   Length                                      Estimated
        Type of       Type of                  Sample                    Initial        Percentage
                                     of                      of                                        Untimely
         Error         Case                     Size                   Response in       Untimely
                                  Closures                 Delay                                        Initial
                                                                         Sample
                                                                                                       Response
                                                               33-85
                      CDP           14,659        58          calendar         18            31%           4,549
       Untimely
                                                                days
         Initial
       Response                                                33-50
                       OIC           4,041          57        calendar          8            14%            567
                                                                days
     Source: TIGTA review of a statistically valid sample of cases closed by Appeals’ campuses in FY 2008.

The prior TIGTA review identified that Appeals was not always responsive to taxpayers when
acknowledging receipt of their appeal or claim. That review found that 11 percent of the
sampled CDP cases closed by the campuses had delays in issuing the UALs ranging from
30 to 90 calendar days after case assignment. This review identified 31 percent of the sampled
CDP cases had delays in issuing the UALs ranging from 33 to 85 calendar days after case receipt
in Appeals. If we project the results to the population, 4,549 taxpayers were potentially
burdened because the UALs were not timely issued. 27
Previous Appeals procedures did not specify a time period in which the UAL must be sent to
taxpayers for OIC cases. The prior TIGTA review identified that 42 percent of the sampled OIC
cases had delays in issuing the UALs to taxpayers ranging from 30 to 300 calendar days after
case assignment. This review identified 14 percent of the sampled OIC cases had delays in
issuing the UALs ranging from 33 to 50 calendar days after case receipt in Appeals, which is a


27
  Based on 58 randomly selected CDP cases closed by the campuses in FY 2008 with a 31.03 percent error rate, a
precision rate of ± 9.97 percent, and a 90 percent confidence level.
                                                                                                         Page 11
                                Appeals Has Made Considerable Progress in
                                Its Campus Centralization Efforts, but Some
                                    Opportunities Exist for Improvement



marked improvement in the extent of the delays. If we project the results to the population, 567
taxpayers were potentially burdened because the UALs were not timely issued for OIC cases. 28
As a result of the prior TIGTA report, Appeals revised its procedures to require the issuance of
the UAL within 30 calendar days of the case being received in Appeals. Appeals also revised
programming and developed a monthly report to assess its compliance with the established
requirement. Appeals management informed us they have decided to generate the report
quarterly because they are satisfied with their compliance with the 30 calendar day time period.
This report, whether generated monthly or quarterly, was not intended to be used as a control to
identify cases in jeopardy of not meeting the 30 calendar day time period. Consequently,
Appeals did not develop an internal control to identify cases at risk of not meeting their
30 calendar day requirement.

Recommendation
Recommendation 3: The Chief, Appeals, should develop an internal control, possibly using
programming changes made as a result of a prior TIGTA recommendation, which would identify
the absence of the UALs on CDP and OIC cases and ensure one is issued within 30 calendar
days of receipt as required by Appeals management.
        Management’s Response: Appeals management agreed with our recommendation
        and plans to develop Appeals Centralized Database System AdHoc templates that
        identify OIC and CDP nondocketed cases received within the preceding 30 calendar days
        which have no UAL issued to the taxpayer or representative, and provide AdHoc training
        for the Appeals field managers to ensure understanding of the templates. The Appeals
        field managers will monitor the timeliness of UALs issued on nondocketed OIC and CDP
        receipts by generating the AdHoc templates within appropriate timeframes, and will take
        followup actions to ensure UALs are issued timely. Appeals will continue to monitor the
        UAL timeliness through the Quarterly UAL Tracking Report. Appeals management also
        plans to update Internal Revenue Manual Section 1.4.28 with the responsibility and use
        requirements of the UAL AdHoc reports.




28
  Based on 57 randomly selected OIC cases closed by the campuses in FY 2008 with a 14.04 percent error rate, a
precision rate of ± 7.51 percent, and a 90 percent confidence level.




                                                                                                       Page 12
                                  Appeals Has Made Considerable Progress in
                                  Its Campus Centralization Efforts, but Some
                                      Opportunities Exist for Improvement



                                                                                                    Appendix I

          Detailed Objective, Scope, and Methodology

Our overall objective was to evaluate the effectiveness of actions taken by Office of Appeals
(hereafter referred to as Appeals) management as a result of a prior TIGTA audit 1 evaluating the
quality and effectiveness of Appeals centralized campus 2 operations and whether those actions
resolved conditions previously identified. To accomplish our objective, we:
I.       Determined what actions have been taken by Appeals management in response to
         recommendations made in the prior review of Appeals’ campus centralization.
         A. Reviewed the actions taken by Appeals management to analyze and revise their
            methodology used to select statistically valid samples of cases closed by the campuses to
            measure and report on the quality of their casework.
         B. Determined whether Appeals has provided updated guidance and training for Innocent
            Spouse claims, penalty abatement cases, and third-party contacts.
         C. Determined whether Appeals updated the Internal Revenue Manual 3 and sampled and
            reviewed refund claims to clarify procedures to assess whether proper decisions were
            being made on refund claims based on the statute of limitations.
         D. Determined whether Appeals adopted consistent specific language in the UAL for
            Innocent Spouse, Non-Docketed, and OIC cases to ensure the taxpayer has a clear
            understanding of his or her options regarding a face-to-face appeals hearing.
         E. Determined whether Appeals has revised its method of monitoring the aging of Penalty
            Appeal cases and Innocent Spouse claims so long periods of inactivity are promptly
            addressed.
         F. Determined whether Appeals established a timeliness standard for issuance of UALs.
II.      Assessed the applicable Appeals campus work streams (CDP, Innocent Spouse,
         Non-Docketed, OIC, and Penalty Appeal) to determine whether the conditions identified in
         the prior audit continue to exist and whether the corrective actions were effective.


1
  The Office Of Appeals Needs to Improve the Monitoring of Its Campus Operations Quality (Reference
Number 2007-10-071, dated May 10, 2007).
2
  The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.
3
  The Internal Revenue Manual is the single official source for IRS policies, directives, guidelines, procedures, and
delegations of authority in the IRS.
                                                                                                             Page 13
                            Appeals Has Made Considerable Progress in
                            Its Campus Centralization Efforts, but Some
                                Opportunities Exist for Improvement



       A. Obtained a computer extract of all closed campus cases for FY 2008 from the
          Centralized Database file maintained at the TIGTA Data Center Warehouse.
       B. Validated the reliability of the computer extract using the table descriptions from the
          Data Center Warehouse, reviewed the appropriateness of data within fields, and
          compared population totals to information obtained from Appeals officials.
       C. Selected statistically valid random samples from the five applicable work streams to
          evaluate the effectiveness of Appeals’ corrective actions. The total sample of 287 cases
          was selected based on a confidence level of 90 percent, a precision rate of ±6.5 percent,
          and an expected error rate of 10 percent. The samples were obtained from the total
          population of 31,136 cases closed by the campuses in FY 2008. Specifically, the
          287 cases sampled for the work streams are as follows: 58 of the 14,659 CDP cases,
          57 of the 4,041 OIC cases, 57 of the 3,195 Innocent Spouse claims, 58 of the
          6,775 Penalty Appeal cases, and 57 of the 2,466 Non-Docketed cases closed in
          FY 2008.
       D. Discussed and obtained confirmation to the potential exceptions identified with Appeals
          officials.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the Office of Appeals’ policies,
procedures, and practices for processing selected work streams in campus operations. We
evaluated these controls by interviewing management and reviewing case files.




                                                                                             Page 14
                          Appeals Has Made Considerable Progress in
                          Its Campus Centralization Efforts, but Some
                              Opportunities Exist for Improvement



                                                                           Appendix II

                Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Jeffrey M. Jones, Director
Diana M. Tengesdal, Acting Director
Janice M. Pryor, Audit Manager
Joseph P. Smith, Lead Auditor
Mark A. Judson, Senior Auditor
Mary F. Herberger, Senior Auditor
Mildred Rita Woody, Senior Auditor




                                                                                  Page 15
                          Appeals Has Made Considerable Progress in
                          Its Campus Centralization Efforts, but Some
                              Opportunities Exist for Improvement



                                                                  Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Chief, Appeals AP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief, Appeals AP




                                                                        Page 16
                                 Appeals Has Made Considerable Progress in
                                 Its Campus Centralization Efforts, but Some
                                     Opportunities Exist for Improvement



                                                                                             Appendix IV

                                    Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Taxpayer Rights and Entitlements – Potential; 336 taxpayers may have had their rights
    violated because they did not receive proper notification from Appeals on Innocent Spouse
    claims (see page 7).

Methodology Used to Measure the Reported Benefit:
In 6 (10.53 percent) of the 57 sampled Innocent Spouse claims reviewed, Appeals did not send
the final determination or conference letter to the nonrequesting spouse because he or she was
deceased. Appeals campuses 1 closed a total of 3,195 Innocent Spouse appeals in FY 2008. We
estimate that, potentially, 336 (3,195 x 10.53 percent error rate) of those cases may not have had
the final determination or conference letter issued. Our review of 57 randomly selected Innocent
Spouse claims for this attribute resulted in a 10.53 percent actual error rate and a ± 6.5 percent
precision rate based on a 90 percent confidence level.

Type and Value of Outcome Measure:
•   *******************************************1**************************************************
    *******************************************************************.
•   Protection of Revenue – Potential; 87 accounts with erroneous refunds that were barred by
    the statute of limitations (see page 7).

Methodology Used to Measure the Reported Benefit:
In ***1*** of the 57 sampled closed Non-Docketed campus cases, ************1*********
****************************************************************************.
**********************************************************. Appeals campus groups
closed a total of 2,466 Non-Docketed cases in FY 2008. We estimate that 87 (2,466 population x
3.51 percent error rate) accounts contained erroneous refunds. Our review of 57 randomly

1
 The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                        Page 17
                                Appeals Has Made Considerable Progress in
                                Its Campus Centralization Efforts, but Some
                                    Opportunities Exist for Improvement



selected Non-Docketed cases for this attribute resulted in an actual error rate of ****1***** and
a ± 3.96 percent precision rate based on a 90 percent confidence level.
Since our sample was based on a review of quality attributes, we did not project the potential
dollars of revenue protected for the population of closed campus Non-Docketed cases.

Type and Value of Outcome Measure:
•   Protection of Revenue – Actual; $28,918 was not collected due to inappropriate abatements
    of post-assessment penalties for 7 taxpayers (see page 7).
•   Protection of Revenue – Potential; 811 Penalty Appeal cases may have inappropriate
    abatements of post-assessment penalties resulting in potential lost revenue during
    FY 2008 (see page 7).

Methodology Used to Measure the Reported Benefit:
Penalties were erroneously abated in 7 (12.07 percent) of 58 post-assessment penalty cases
closed by campus Appeals. The IRS could have protected assessments totaling $28,918 for these
7 cases if agency criteria were followed, adequate research was conducted, and the case files
contained documentation to support their determination. Appeals campuses closed a total of
6,775 post-assessment Penalty Appeal cases during FY 2008. We estimate that 818
(6,775 population x 12.07 percent error rate) of those cases could have erroneous penalty
abatements (7 actual + 811 potential = 818). Our review of 58 randomly sampled cases for this
attribute resulted in a 12.07 percent actual error rate and a ± 7.01 percent precision rate based on
a 90 percent confidence level.
Since our sample was based on a review of quality attributes, we did not project the potential
dollars of revenue protected for the population of campus Penalty Appeal cases.

Type and Value of Outcome Measure:
•   Taxpayer Burden – Potential; 4,549 taxpayers may have experienced delays in the issuance
    of the UAL for CDP cases (see page 7).

Methodology Used to Measure the Reported Benefit:
As a result of the prior TIGTA audit, 2 Appeals added the requirement to issue the UAL within
30 calendar days of the date the case is received by Appeals. In 18 (31.03 percent) of the
58 sampled CDP cases, taxpayers experienced delays receiving the UAL. These taxpayers may
have been unnecessarily burdened by not timely knowing the status of their Appeals request.


2
 The Office Of Appeals Needs to Improve the Monitoring of Its Campus Operations Quality (Reference
Number 2007-10-071, dated May 10, 2007).
                                                                                                     Page 18
                             Appeals Has Made Considerable Progress in
                             Its Campus Centralization Efforts, but Some
                                 Opportunities Exist for Improvement



Appeals campuses closed a total of 14,659 CDP cases in FY 2008. We estimate that
4,549 taxpayers (14,659 population x 31.03 percent error rate) were potentially burdened when
the UALs were not issued timely. Our review of 58 randomly selected CDP campus closures for
this attribute resulted in an actual error rate of 31.03 percent and a ± 9.97 percent precision rate
based on a 90 percent confidence level.

Type and Value of Outcome Measure:
•   Taxpayer Burden – Potential; 567 taxpayers who requested an appeal of their rejected OIC
    may have experienced delays in the issuance of the UAL (see page 7).

Methodology Used to Measure the Reported Benefit:
As a result of the prior TIGTA audit, Appeals added the requirement to issue the UAL within
30 calendar days of the date the case is received by Appeals. In 8 (14.04 percent) of the
57 sampled OIC cases, taxpayers experienced delays receiving the UAL. Appeals campuses
closed a total of 4,041 OIC cases in FY 2008. We estimate that 567 taxpayers (4,041 population
x 14.04 percent error rate) were potentially burdened when the UALs were not issued timely.
Our review of 57 randomly selected OIC campus closures for this attribute resulted in an actual
error rate of 14.04 percent and a ± 7.51 percent precision rate based on a 90 percent confidence
level.




                                                                                            Page 19
                                 Appeals Has Made Considerable Progress in
                                 Its Campus Centralization Efforts, but Some
                                     Opportunities Exist for Improvement



                                                                                               Appendix V

                               Appeals Case Receipts                             1




                       Type of Case              FY 2005       FY 2006       FY 2007        FY 2008

           CDP                                    29,810         32,517        30,938        35,760

           OIC                                    14,934         10,462        10,797        10,558

           Innocent Spouse                         3,341         3,203          3,870         4,041

           Penalties                              13,703         11,930         9,864        10,365

           Coordinated Industry Cases               552           453            371           398

           Industry Cases                           750          1,056          1,031         1,398

           Examination 2                          31,536         32,649        37,499        42,990

           Other 3                                 5,292         4,868          7,899        10,309

                                      TOTAL       99,918         97,138       102,269        115,819
         Source: Appeals Business Performance Reviews dated December 17, 2007, and November 14, 2008.




1
  Includes both campus and field cases. Campus cases are worked in a centralized environment that specializes in
certain case types. Field cases are worked in local offices closest to the taxpayer.
2
  Examination cases also include those involving the Tax Exempt and Government Entities Division and those can
be broken down further to Non-Docketed, Docketed, and S-Docketed. S-Docketed cases are those where the
taxpayer has petitioned the Tax Court on audit assessments less than $50,000.
3
  Other includes Freedom of Information Act, Abatement of Interest, Collection Appeals, Office of Professional
Responsibility, Other Penalties, and Miscellaneous cases.
                                                                                                         Page 20
                                    Appeals Has Made Considerable Progress in
                                    Its Campus Centralization Efforts, but Some
                                        Opportunities Exist for Improvement



                                                                                                   Appendix VI

                          Appeals Centralized Campuses                                      1




         Type of Case              Original Campus              Date of Initial          Current Campus
                                                                Centralization                As of
                                                                                        September 18, 2008
                                          Fresno                 October 2004                     Fresno
               CDP
                                        Memphis                 September 2005                   Memphis
                                       Brookhaven               December 2003                   Brookhaven
               OIC
                                        Memphis                    April 2005                    Memphis
                                        Covington                October 2003                   Covington
         Innocent Spouse
                                        Memphis                    April 2005                   Memphis
                                                                                                  Ogden
             Penalties                    Ogden                 September 2004                  Brookhaven
                                                                                                 Memphis
                                          Fresno                 February 2004                    Fresno
                                                                                                   Ogden
          Non-Docketed                    Ogden                 November 2005
                                                                                                Philadelphia
           Examination                Philadelphia 2                  1988
                                                                                                Brookhaven
                                                                                                 Memphis
                                       Brookhaven                  June 2005                    Brookhaven
                                                                                                  Fresno
           S-Docketed                     Fresno                 February 2004
                                                     3
                                                                                                Philadelphia
           Examination                Philadelphia                    1988
                                                                                                 Memphis
                                                                                                  Ogden
           Freedom of                     Fresno                 February 2004                    Fresno
           Information
    Source: The Office of Appeals Needs to Improve the Monitoring of Its Campus Operations Quality (Reference Number
    2007-10-071, dated May 10, 2007) and Director of Technical Services, Appeals.



1
  The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.
2
  Philadelphia only processes Non-Docketed Examination cases that originated in the Philadelphia Campus.
3
  Philadelphia only processes S-Docketed cases that originated in the Philadelphia Campus.
                                                                                                               Page 21
                                   Appeals Has Made Considerable Progress in
                                   Its Campus Centralization Efforts, but Some
                                       Opportunities Exist for Improvement




                                                                                                  Appendix VII

             Types of Cases Worked at the Campuses                                                       1




Case Type                                                       Description

CDP                    The IRS is required to notify taxpayers in writing that a lien 2 has been filed or that it
                       intends to levy. 3 A taxpayer is allowed to appeal a lien or levy action through the
                       CDP by filing a hearing request.
OIC                    An OIC is an agreement between a taxpayer and the IRS that resolves the taxpayer’s
                       tax debt. The IRS has the authority to settle, or “compromise,” Federal tax liabilities
                       by accepting less than full payment under certain circumstances. When the IRS
                       rejects a taxpayer’s OIC, the taxpayer may appeal.

Innocent Spouse        A husband and wife are generally liable jointly and individually for the entire tax on
                       a joint return. The IRS may collect the entire amount of tax, penalties, and interest
                       due on a joint return from either spouse. However, the IRS Restructuring and
                       Reform Act of 1998 made substantial changes to the tax law by including provisions
                       to allow expanded relief for married taxpayers from the burden of tax liability.
                       Taxpayers who have requested relief and disagree with the IRS’ decision may file a
                       Statement of Disagreement (Form 12509) 4 and elect to forward the claim to Appeals
                       or file a petition with the Tax Court.
S-Docketed             These are examination audit assessments less than $50,000 and the taxpayer
Examination            petitioned the Tax Court.




1
  The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.
2
  When initial contacts by the IRS do not result in the successful collection of unpaid tax, the IRS has the authority
to attach a claim, commonly referred to as a lien, to the taxpayer’s assets.
3
  The IRS has the authority to work directly with financial institutions and other parties to obtain funds owed by a
taxpayer. This process is commonly referred to as a levy.
4
  This form is used to explain why taxpayers disagree with the IRS determination concerning relief from joint
and several liability for a joint return under Internal Revenue Code Sections 6015(b), 6015(c), or
6015(f) (2007).
                                                                                                              Page 22
                                   Appeals Has Made Considerable Progress in
                                   Its Campus Centralization Efforts, but Some
                                       Opportunities Exist for Improvement



Case Type                                                       Description
Penalty Appeal         Penalties are effective tools used by the IRS to encourage voluntary tax compliance.
                       The IRS may request payment from a taxpayer for some types of penalties before the
                       taxpayer has an opportunity to dispute the penalties. These are considered post-
                       assessment penalties. 5 Taxpayers who disagree with these post-assessment penalties
                       can choose to protest the penalty through an appeal.

Non-Docketed           Non-Docketed examination cases are those in which the taxpayer has not filed a
Examination            petition in the United States Tax Court. If the IRS identifies a deficiency on a
                       taxpayer’s return, the IRS will send the taxpayer a letter, accompanied by the
                       Revenue Agent’s Report, which gives the taxpayer 30 calendar days to request an
                       Appeals conference. If the taxpayer does not request an Appeals conference, then
                       the IRS will send the taxpayer a Notice of Deficiency. If the taxpayer files a petition
                       with the Tax Court and has not had an Appeals conference, the IRS will send the
                       case to Appeals to investigate a possible settlement.
Freedom of             Whenever a Freedom of Information Act request is denied, the requester has the right
Information            to appeal the denial. A requester may appeal the withholding of a document, the
                       denial of a fee waiver request, the type or amount of fees that were charged, or any
                       other type of adverse determination under the Freedom of Information Act. A
                       requester can also appeal because the IRS failed to conduct an adequate search for
                       the documents that were requested. However, a requester may not file an
                       administrative appeal for the lack of a timely response.




5
 Post-assessment penalties include the failure to pay tax penalty and the failure to file penalty under Internal
Revenue Code Section 6651 (2007).
                                                                                                              Page 23
          Appeals Has Made Considerable Progress in
          Its Campus Centralization Efforts, but Some
              Opportunities Exist for Improvement



                                                 Appendix VIII

Management’s Response to the Draft Report




                                                        Page 24
Appeals Has Made Considerable Progress in
Its Campus Centralization Efforts, but Some
    Opportunities Exist for Improvement




                                              Page 25
Appeals Has Made Considerable Progress in
Its Campus Centralization Efforts, but Some
    Opportunities Exist for Improvement




                                              Page 26
Appeals Has Made Considerable Progress in
Its Campus Centralization Efforts, but Some
    Opportunities Exist for Improvement




                                              Page 27
